APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA GOLD/VISA CLASSIC

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

7.90%
Visa Gold

8.90%
Visa Classic

9.90%
APR for Balance Transfers

Visa Platinum
8.90%
Visa Gold
9.90%

APR for Cash Advances

Visa Classic
10.90%
Visa Platinum
8.90%
Visa Gold
9.90%
Visa Classic
10.90%

Penalty APR and When it Applies

Visa Platinum
14.90%
Visa Gold
14.90%
Visa Classic
14.90%
This APR may be applied to your account if you:
- Make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for
this reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111048-MXC10-P-1-111517 (MXC101-E)

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

1.00% of each transaction in U.S. dollars
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of: November 20, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Gold and Visa Classic are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Rush Fee:
$70.00.
Statement Copy Fee:
$1.00.
Express Card Fee:
$35.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111048-MXC10-P-1-111517 (MXC101-E)

